<html>
<title> - TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 TREASURY, POSTAL SERVICE, AND GENERAL

                     GOVERNMENT APPROPRIATIONS FOR

                            FISCAL YEAR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT 
                             APPROPRIATIONS

                      JIM KOLBE, Arizona, Chairman

 FRANK R. WOLF, Virginia          STENY H. HOYER, Maryland
 ERNEST J. ISTOOK, Jr., Oklahoma  CARRIE P. MEEK, Florida
 MICHAEL P. FORBES, New York      DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky        
 ROBERT B. ADERHOLT, Alabama       

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

   Michelle Mrdeza, Elizabeth A. Phillips, Jeff Ashford, and Melanie 
                      Marshall, Staff Assistants
                                ________

                                 PART 5

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-085 O                   WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          






                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR 1998

                              ----------                              

                                                 Tuesday, April 8, 1997.

   TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

    Mr. Kolbe. The Subcommittee on Treasury, Postal Service, 
and General Government will come to order. This is our last 
public hearing of this season, so to speak, and today is 
devoted to testimony by Members of Congress and outside groups.
    We have a lot of people that, of course, always want to 
testify with regard to the various agencies that are under our 
jurisdiction or various parts of our appropriation bill, and so 
I would urge everybody that is here already listening to me 
that we would like to please keep the testimony to 5 minutes. 
The full statements will be placed in the record.
    We will go--we have an order here; but we will go, of 
course, in the order that people actually show up here. I don't 
see Peter here to begin with, and so we will begin here with 
the second one that is on our list here, Earl Blumenauer. Earl.
    Mr. Blumenauer. Thank you, Mr. Chairman. I appreciate your 
courtesy, and I will attempt to take less than the 5 minutes. I 
have submitted testimony in advance.
    Basically, the reason I am here today is there is a great 
deal of interest in Washington, D.C., of late of those of us in 
the Federal Government walking our talk. The post office, 
although a quasi-Federal agency, still represents the Federal 
Government for many people. It is the heart and soul of many 
small communities, and it is part of the heritage of every 
community.
    Last week--last year, rather, this subcommittee gave policy 
direction dealing with the closures of small rural post 
offices. I am here today seeking your assistance in helping 
make sure that the post office is a good neighbor. It is 
important to make sure that it--we build on a concept of the 
Federal Government through the post office, following local 
land use regulations.
    I have a number of examples in Mr. Hoyer's district and Mr. 
Forbe's district where local communities are very concerned by 
the inability to be able to work in a constructive fashion with 
the post office to make sure that the post office plays by the 
same rules.
    The language that I have proposed is to make sure that in 
the areas of renovation, closing and consolidations that the 
post office must abide by local zoning and building code 
requirements and to make sure that the local community is given 
meaningful input into those decisions.
    As you may be aware, currently the post office is required, 
under U.S. Code, to have input in areas of closure or 
consolidation but not in decisions that actually many times 
strike more at the fabric of community when you are talking 
about renovation and relocation; and I would ask very simply 
that this committee consider adding this directive to the post 
office in this year's bill.
    I am happy to answer any questions. If you wish, I can give 
examples of where it is issues of following local planning 
relating to roads, historic preservation. But, as I say, I 
provided that in the previous testimony, and I know time is at 
a premium.
    Mr. Kolbe. I thank the gentleman from Oregon for his 
testimony and for this suggestion. I think it is an interesting 
one and certainly one that we will want to take under 
advisement. If we do have any other questions, we will 
certainly be in touch with you on that.
    Mr. Blumenauer. Thank you very much, Mr. Chairman.
    Mr. Kolbe. Thank you very much for coming and testifying.
    [The prepared statement of Congressman Blumenauer follows:]

[Pages 3 - 4--The official Committee record contains additional material here.]




                                            Tuesday, April 8, 1997.

                                WITNESS

HON. CARLOS ROMERO-BARCELO1, A RESIDENT COMMISSIONER IN CONGRESS FROM 
    PUERTO RICO

    Mr. Kolbe. We will go next to Carlos Romero-Barcelo1, the 
gentleman from Puerto Rico, Commissioner from Puerto Rico.
    Mr. Romero-Barcelo1. Thank you, Mr. Chairman. I appreciate 
the opportunity to testify today. I have submitted a longer 
statement for the record.
    The purpose of my appearance here today is to discuss the 
University of Puerto Rico's interest in acquiring a land site 
located in Sabana Seca, Puerto Rico, for scientific research 
currently being conducted by the University on the site with 
the support of the National Institutes of Health. The site 
consists of 270 acres owned by the NIH and an additional 5.6 
acres of land that is currently leased to the Navy by the NIH.
    For nearly 30 years, the National Institutes of Health has 
leased this site to the University of Puerto Rico. The 
University's Medical Science Campus currently uses the site to 
support the research of the Caribbean Primate Research Center. 
The Center is world-renowned for its research resources related 
to the studies on the behavior, biology, genetics and the 
spontaneous diseases of non-human primates.
    The origins of the Center date back to 1938, when the Cayo 
Santiago rhesus monkey colony was established to provide a 
field site for behavioral studies and to supply rhesus monkeys 
for biomedical and anatomical research.
    In 1956, the NIH laboratory for Perinatal Physiologyopened 
in San Juan and the Cayo Santiago site became the Library's primary 
ecology section. When the Library closed in 1970, the University of 
Puerto Rico formally established a Caribbean primate center and has 
since leased the property at the Sabana Seca site from NIH in an effort 
to continue primate research. Much of the support for the University's 
research at the site comes from the NIH.
    In 1996, following a review of the NIH's Space and Facility 
Management Division, the agency made a determination to surplus 
the land. The NIH is in the process of disposing of the 
property through ordinary GSA processes, and NIH has advised 
the GSA and other appropriate Federal agencies that NIH has no 
objection to the University obtaining ownership of the 
property.
    NIH and Navy officials have expressed their support for the 
University's acquisition of the Sabana Seca property. In 
addition to continued use of the site as a primate facility, 
the University proposes to establish a new University Science 
Park and Ecological Research Center. This plan includes 
development of the area to support short- and long-term 
ecological research of the flora, fauna and rare species of 
animals unique to this area of the Caribbean.
    The University of Puerto Rico's Science Park and Ecological 
Research Center will pool the scientific talent and know-how of 
a number of existing research centers in Puerto Rico, the U.S. 
mainland and throughout the Caribbean and Latin America to 
foster collaboration and joint research projects.
    Mr. Chairman, the transfer of the Sabana Seca land to the 
University is essential for the continued operation and success 
of the Caribbean Primate Research Center. It is my hope that 
you and the other members of the subcommittee will support this 
effort, and I am requesting that language be included in the 
fiscal year 1998 Treasury, Postal Service and General 
Government Operations appropriations bill to authorize this 
transfer. I will be submitting a bill to that effect, Mr. 
Chairman. I would appreciate it.
    Thank you.
    Mr. Kolbe. Thank you. Thank you very much, Carlos. We 
appreciate your testimony, and we will certainly take this 
under consideration. This is not a normal precedent for this 
subcommittee to do this but certainly one that we will want to 
consider, and we will be in touch with you.
    Mr. Romero-Barcelo1. Thank you very much.
    Mr. Kolbe. Thank you very much.
    [The prepared statement of Resident-Commissioner Romero-
Barcelo1 follows:]


[Pages 7 - 11--The official Committee record contains additional material here.]



                                            Tuesday, April 8, 1997.

                                WITNESS

HON. PETER VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA

    Mr. Kolbe. We will go back now and take Mr. Visclosky from 
Indiana.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    I understand my statement will be entered in the record.
    Mr. Kolbe. Yes, the full statement will be entered in the 
record.
    Mr. Visclosky. I would like to start out by saying that I 
was lonely not being on the subcommittee any longer and 
couldn't wait to get back.
    Mr. Kolbe. We are happy to have you back with us here. We 
would encourage you to come back often.
    Mr. Visclosky. Thank you very much.
    Mr. Kolbe. Not often with requests necessarily, but at 
least you are always welcome to sit up here.
    Mr. Visclosky. I misunderstood the Chairman.
    Mr. Chairman, again, I thank you very much for the 
opportunity to present testimony today and am here to ask that 
the subcommittee consider continuing the support for the Lake 
County, Indiana, High Intensity Drug Trafficking Area at the $3 
million that the subcommittee provided for the current year.
    What we tried to do with the Lake County HIDTA is not to 
reinvent the wheel but to continue support for the Lake County 
Drug Task Force, the Gary Response Investigative Team and the 
Northwest Indiana Investigative Support Center.
    The head of ONDCP, General Barry McCaffrey visited our 
HIDTA this past week, and we want to continue that cooperation 
with ONDCP and try to use the HIDTA funds as efficiently and 
effectively as possible. I appreciate the subcommittee's 
support, Mr. Chairman.
    Mr. Kolbe. Thank you very much. We appreciate the brevity 
of your testimony, and we certainly have the whole thing here.
    I know you and I have talked--actually, we haven't talked 
about this particular issue before, but I appreciate your 
bringing this to our attention here. We have been spending a 
lot of time in the last few days or last couple of weeks doing 
a tour of the southwest border dealing with some of the HIDTA, 
and so we appreciate the work that they do and note that they 
can be very successful in their effort--in our efforts to help 
counteract drug trafficking. So we appreciate your interest in 
this.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Kolbe. Thank you very much, Mr. Visclosky.
    [The prepared statement of Congressman Visclosky follows:]



[Pages 13 - 15--The official Committee record contains additional material here.]





                                          Tuesday, April 8, 1997.  

        BUREAU OF ALCOHOL, TOBACCO AND FIREARMS, RELATED MATTERS

                                WITNESS

ERIC LARSON, COLLECTORS ARMS DEALERS ASSOCIATION
    Mr. Kolbe. I don't believe we have any other Members here. 
Mr. Shays was here a minute earlier. We will go to the outside 
witnesses, and as these other Members show up here we will come 
back to them.
    Let's see who we have got here. Is Mr. Larson here?
    Yes, Mr. Larson, if you would like to come on up.
    Mr. Larson. Thank you, Mr. Chairman, for this opportunity 
to speak with you.
    My name is Eric M. Larson. I testified----
    Mr. Kolbe. Would you pull the microphone closer and speak 
up a little bit?
    Mr. Larson. How is this?
    Mr. Kolbe. Just pull it towards you. Thank you.
    Mr. Larson. All right. Thank you.
    My name is Eric M. Larson. I testified before this 
subcommittee last year about certain curio or relic firearms 
manufactured in or before 1934 that have special value to 
collectors at the request of the Collectors Arms Dealers 
Association. I am here to do so again this year and thank you 
for this opportunity.
    But, first, before making my statement, I hope that the 
subcommittee will continue to prohibit the Bureau of Alcohol, 
Tobacco and Firearms from spending any government funds to 
change the curio or relic definition, to remove any firearm 
from the curio and relic list or to change the law regarding 
the importation of curio or relic firearms.
    Last year, at the hearing, Chairman Lightfoot said, 
``Occasionally, one of these old relics that you are talking 
about shows up, that has been in a drawer that grandma or 
grandpa stuck there 50 years ago or whatever. This is an area 
we need to look at, too, I think.''
    These old animal trap guns and gadget-type items like knife 
pistols, unique or strange firearms such as wrench guns and 
relatively low-powered small-game guns were, for largely 
technical reasons, classified as firearms subject to 
registration under the National Firearms Act of 1934, although 
they were not commonly used by criminals.
    Most of these guns were already obsolete before 1934. 
Today, they are historical artifacts. They are very highly 
prized by collectors.
    At the request of the collecting community, I would like to 
respectfully ask the subcommittee to take administrative action 
and, if necessary, legislative action to remove the following 
firearms from the purview of the NFA and reclassify them as 
conventional firearms--that is, as ordinary rifles, shotguns, 
pistols or revolvers--as defined in Title 18, United States 
Code, Chapter 44:
    Any firearm classified as ``any other weapon'' under the 
National Firearms Act of 1934, as amended, which was originally 
commercially manufactured in the United States in or before 
1934, but not replicas thereof.
    There are three basic reasons:
    Number one, in 1960, the Congress determined that these 
pre-1934 ``any other weapon'' firearms are mainly collectors 
items and are not likely to be used as weapons. I estimate that 
fewer than 17,000 still exist today.
    Reason number two: Last year, a Federal court dismissed 
five criminal convictions for nonregistration because ATF 
employees have thrown registration documents away rather than 
do the work to enter them into the NFA firearm registration 
database. If ATF loses the registration document and a person 
who owns a pre-1934 AOW can't find his copy, current law does 
not allow him to reregister the gun.
    Under the law, ATF must confiscate the firearm, even if it 
may never have been used in criminal activities. The owner is 
also subject to a $250,000 fine and 10 years in prison. I 
believe these penalties are unfair, inappropriately harsh and 
unwarranted.
    Now, I would like to distinguish the problems I have 
identified with the NFA firearm registration data base as a 
product of my individual research and not as the policy or 
position of the Collectors Arms Dealers Association. The reason 
is that my research is, in a way, simply a detail and intended 
as something from me to the subcommittee--a statement by a 
concerned private citizen backed up by what I believe is valid 
and reliable evidence, virtually all of it obtained from ATF 
itself.
    While the NFA database problem is an important and perhaps 
critical detail, I believe that the major case for removing 
these ``any other weapon'' firearms from the NFA lies in and 
has been presented in the law and legislative history relevant 
to these firearms.
    Last year, I reviewed this evidence in considerable detail. 
I have summarized it in my detailed testimony this year and am 
revisiting the concerns that I expressed last year regarding 
special and more lenient treatment for these ``any other 
weapon'' firearms on behalf of the collecting community.
    Reason number three: No change in any law is required. All 
of these pre-1934 ``any other weapon'' firearms may simply be 
administratively removed from the NFA as collector's items. On 
a case-by-case basis, ATF may already have removed between 
50,000 and 100,000 individual firearms, such as Winchester 
trapper carbines and Luger and Mauser shoulder stock pistols 
from the NFA.
    This subcommittee has the power to grant this request by 
taking administrative action, and it is my sincere hope that 
you will do so.
    Finally, I would like to say the main benefit of taking 
these weapons off such strict controls would be to benefitthe 
individual collector, not really dealers. The individual people who own 
these guns as prized family heirlooms, I think, would be eternally 
grateful to the government for doing this for them.
    Mr. Chairman, this concludes my prepared oral statement. I 
will be glad to answer any questions that you may have.
    Mr. Kolbe. Thank you, Mr. Larson.
    Let me just ask you one quick question here. Have you had 
discussions with the authorizing committee about this? Have you 
approached them about legislation in this area?
    Mr. Larson. Legislation isn't required. It is an 
administrative action that can be taken without any change in 
the law. But, no, I haven't talked with the committee.
    The reason that I am testifying here this year is that I 
did so last year because of concerns about ATF changing the 
curio or relic definition. These firearms fell under that, and 
the Collectors Arms Dealers Association asked me to do so again 
this year.
    Mr. Kolbe. All right. Thank you very much. I appreciate 
your testimony.
    [Clerk's Note. Due to the volume of additional background 
information provided by the witness, these documents are being 
maintained in the Subcommittee's official files.]
    [The prepared statement of Mr. Larson follows:]



[Pages 19 - 139--The official Committee record contains additional material here.]



                                            Tuesday, April 8, 1997.

                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Kolbe. We will go back and take Mr. Shays, Chris Shays 
of Connecticut.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Kolbe. Good morning.
    Mr. Shays. Good morning.
    Mr. Chairman, first, it is great to see you in this 
position taking care of our government's expenditures in the 
Treasury, Postal Appropriations Subcommittee; and I am here to 
request support for the Federal Election Commission's, the 
FEC's, request for the $34.2 million appropriation in your 
fiscal year 1998 budget. This includes the $29.3 million that 
was their original request, plus their additional request of 
$4.9 million.
    I am also here to request that you appropriate $1.7 million 
in the supplementary appropriation for fiscal year 1997.
    Mr. Chairman, I am a strong fiscal conservative. I usually 
show up in the top 10 of the Taxpayers Association and other 
organizations that tend to see what our fiscal policy is and 
our votes are. But I am absolutely convinced, as is my 
colleague, Marty Meehan, who has--who I am working with in the 
companion bill to the McCain-Feingold bill in the Senate--Marty 
Meehan who is not here today.
    His first three paragraphs say, Mr. Chairman, I want to 
deliver two simple messages today. First, our election laws 
must be enforced; and, second, in order for that to happen the 
Federal Elections Commission must be fully funded.
    We have a meltdown in our election system. We literally 
have a meltdown. And we have a system where the participants, 
elected officials, those seeking office, know that by the time 
people determine their wrongdoing the election will be well 
passed. It might be months later, it might be years later, and 
then the impact of a fine, the impact of even something more 
serious, has no impact. Because they know by the time it is 
discovered they may already have been elected, and it is a 
story in the back page.
    The FEC needs the money to properly investigate on a timely 
basis and hold people accountable on a timely basis, or else 
the election laws we have simply become a joke. And frankly, we 
who are advocating reform of the election laws have to 
acknowledge something, and that is not only do we need to 
change the law, but we need to enforce the laws that exist. And 
those who oppose reform point out that, hell, we are just not 
even following the laws that exist. Let's at least do that.
    Well, frankly, let's at least do that by funding the FEC, 
giving them the money they need to do their job, giving them 
the money to do the proper investigation and to properly hold 
people who aren't abiding by the law accountable.
    Mr. Kolbe. Thank you, Mr. Shays.
    Mr. Shays. I would just say that I do have a full statement 
which I would like in the record. I know Marty Meehan has a 
statement as well, and I was to be joined by Marge Roukema and 
Mr. Barrett. Both of them are in transit, so they just wanted 
me to relay their support.
    Mr. Kolbe. Thank you for telling me then that neither Mr. 
Meehan nor Mr. Barrett are going to be here this morning.
    Mr. Shays. Nor Ms. Roukema as well.
    Mr. Kolbe. We didn't have Ms. Roukema on the list today 
anyhow.
    I appreciate the testimony. Do you have their statements as 
well?
    Mr. Shays. I think Marty Meehan was submitted.
    Mr. Kolbe. We already have the statements.
    Mr. Shays. Are you all set?
    Mr. Kolbe. Yes, we are. I appreciate you coming and 
testifying on this issue. As you know, we have had the FEC 
before us and have had some discussion with them about their 
workload and about how they are allocating their resources. I 
very much appreciate the issues that you have raised, and I 
quite agree that given what has happened in this last election, 
there is certainly going to be a real need to give adequate 
resources to the FEC to cover all the investigations.
    Mr. Shays. Can I make one final point?
    Mr. Kolbe. Yes, of course.
    Mr. Shays. This wasn't my idea, but I would like to adopt 
it as my idea. It was pointed out by one commentator, he said, 
let me get it straight, Congress. You don't fully fund the FEC, 
and people basically skirt the law and break the law, and then 
you spend $10 million to investigate why people have broken the 
law. Wouldn't it be better to put the money up front, enforce 
the law, than to have to come after the fact, spend the same 
amount of money to investigate why people didn't follow the 
law? And I think that commentator is right on target.
    Mr. Kolbe. I appreciate that thought and that testimony.
    Mr. Shays. Thank you.
    Mr. Kolbe. Thank you very much, Mr. Shays.
    [The prepared statement of Congressman Shays follows:]



[Pages 142 - 144--The official Committee record contains additional material here.]




                                            Tuesday, April 8, 1997.

                  U.S. CUSTOMS SERVICE RELATED MATTERS

                                WITNESS

ROBERT F. REITER, ANALYTICAL SYSTEMS ENGINEERING CORPORATION
    Mr. Kolbe. Maxine Waters is not here. Ms. Maloney is not 
here yet.
    Let me ask--we are well ahead of schedule here, which is 
very unusual in congressional testimony--if we have Mr. Reiter, 
Robert Reiter, from Customs here?
    Mr. Reiter.
    Mr. Reiter. Good morning.
    Mr. Kolbe. Good morning.
    Mr. Reiter. I need to correct you slightly. I am not with 
Customs. I am here to talk about----
    Mr. Kolbe. I am sorry. Not with Customs. I was looking 
under my topic, talking about an issue on Customs.
    Mr. Reiter. I don't want to give anybody the wrong idea.
    Mr. Kolbe. Thank you. This is the day for outside 
witnesses. I knew you were not with Customs.
    Mr. Reiter. Thank you.
    Mr. Kolbe. Thank you. You are with Analytical Systems 
Engineering Corporation.
    Mr. Reiter. Yes, thank you.
    I would like to talk about cost-effectiveness analyses for 
nonintrusive inspection systems at ports of entry. The use of 
high-technology systems for detecting illegal drugs, explosives 
and other contraband is necessary to effectively pursue the 
goal of keeping these materials out of the United States.
    However, these systems are expensive to buy, maintain and 
operate. Therefore, intelligent acquisition decisions must 
include assessments of the cost-effectiveness of such systems. 
Cost-effectiveness in this situation does not mean should we 
buy any or should we buy none, but rather which are the most 
effective at finding illegal substances?
    There was a recent study completed by ONDCP, I think was 
reported to this subcommittee, that evaluated just such cost-
effectiveness issues. To summarize their results, for ports, 
seaports, they recommended automated targeting systems as the 
highest priority; high-energy imaging X-rays as the next 
priority; and Pulse Fast Neutron Analysis as their third 
priority, assuming that technology can ever reach a fielding 
point.
    For border crossings, they recommended automated targeting 
systems, high-energy X-ray, low-energy X-ray and Pulse Fast 
Neutron Analysis. However, the recommendations of ONDCP have 
only partly been followed. An automated targeting system 
program is in progress, and there is an initial deployment at 
Long Beach, I believe it is. And several low-energy X-ray 
systems have been deployed; however, no high-energy X-ray 
systems have been deployed.
    High-energy imaging X-ray systems have been tested by the 
United States Government and found to be extremely effective in 
detection of illegal substances, with a rate of over 92 percent 
correct. They are currently in use in seven locations overseas, 
indicating, I believe, acceptance by a number of Customs 
services and governments as being effective.
    The criticisms of high-energy systems have been in the 
past, number one, they are too expensive; number two, they take 
up too much space; and, number three, they are too dangerous to 
use.
    Technology has advanced. Engineering designs have changed. 
As a result, the costs have been significantly reduced. The 
amount of land required has been significantly reduced, and I 
personally disagree that they were never too safe--too unsafe 
to use.
    Using the results from the ONDCP study, based on tests done 
at Otay Mesa, California, using low-energy X-ray, and Tacoma, 
using high-energy X-ray, I have done a quick cost-effectiveness 
analysis for you using the data that is in that report, looking 
at a 2-, 3-, 5- and 7-year period of operation, and 
specifically looking at finding drugs.
    The results of this analysis are that at the 3-year period, 
the high-energy imaging X-ray effectiveness offsets the 
increased initial acquisition costs and operations costs, and 
by the 7-year period they are more than--they are six times as 
effective.
    In spite of this data, there are questions that still 
remain that continually are asked: What is the true cost and 
effectiveness of these kinds of systems? How do we establish a 
nonbiased way of evaluating these systems? What are the 
detailed specific expective results in drug reduction and cost 
of savings associated with the drug reductions? And can high-
energy systems be as effective at border crossings as they can 
at ports?
    While we are debating this in the United States, systems 
have been deployed at ports, border crossings, rail lines and 
airports, in England, France, Germany, China and Qatar. High-
energy systems are also being considered in Saudia Arabia, Abu 
Dhabi, Dubai, Malaysia, South Africa and South Korea. The only 
known low-energy X-ray site outside of the United States is a 
border crossing in Abu Dhabi.
    Based on this data, collected and evaluated by the United 
States Government, high-energy X-ray systems are a cost-
effective and highly efficient method of detecting illegal 
drugs into the United States. Why haven't they been implemented 
and integrated into our drug-fighting strategy?
    In order to resolve these issues and make recommendations 
based on cost-effectiveness, I would like to ask or suggest 
that a panel or group be chartered to review completed tests 
and analyses, to evaluate current claims, and to recommend 
cost-effective solutions to this subcommittee for the 
nondestructive inspection of containers, trucks, cars, 
etcetera, into the United States for detecting illegal substances.
    I also believe this panel should be representative of the 
cross-section of technologies and include industry as well as 
the United States Government.
    One final recommendation I would like to make is that it 
not be under the specific control of the United States Customs 
Service.
    Thank you for your time.
    [The prepared statement of Mr. Reiter follows:]



[Pages 147 - 149--The official Committee record contains additional material here.]





    Mr. Kolbe. Mr. Reiter, thank you very much. We were just 2 
weeks ago on the border at Otay Mesa and also over in Nogales 
where they are testing a gamma ray, portable gamma ray unit, 
which would--that would also be low-energy, I believe; is that 
right?
    Mr. Reiter. Yes, sir.
    Mr. Kolbe. And we are certainly very impressed with what we 
are seeing. But this subcommittee has agreed with you in urging 
the Customs to move faster in their deployment--development and 
deployment of the high-energy systems. We agree with you that 
they are--they are safe, that they certainly have--that they 
are very effective. I think that is the bottom line. They 
really work. They are very, very effective.
    So your testimony will be very helpful to us, and we will 
take that under advisement as to how we will proceed to get our 
Federal agencies, Customs in particular, to move faster in this 
field.
    Mr. Reiter. Thank you, sir.
    Mr. Kolbe. Thank you very much.
    We are going to go ahead here and proceed. I am trying to 
get somebody to sit in the chair for me. I have a group that I 
need to meet with for just a couple of moments. Since we are 
running a little ahead, we will have a recess at the 
appropriate moment, but they are not here yet.
                              ----------                              

                                            Tuesday, April 8, 1997.

                    FEDERAL EMPLOYEE RELATED MATTERS

                               WITNESSES

BOB TOBIAS, NATIONAL TREASURY EMPLOYEES UNION
JIM CUNNINGHAM, NATIONAL FEDERATION OF FEDERAL EMPLOYEES
DAVID SCHLEIN, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Kolbe. Bob Tobias is here with National Treasury 
Employees Union.
    Bob, we will take you at this time. Thank you.
    Mr. Tobias. Thank you, Mr. Chairman, and good morning.
    Mr. Kolbe. Good morning.
    Mr. Tobias. We really appreciate the opportunity to talk 
about the Internal Revenue Service and the Customs Service 
appropriations. These two agencies are key to this country's 
financial well-being.
    First, the IRS, we believe the President's proposal is a 
bare bones proposal. It does not provide the funds to 
significantly enhance the IRS's ability to provide the level of 
customer service that I believe is needed. A planned 60 percent 
level of access for 1998 is not enough.
    The compliant American taxpayer deserves a better than 6 in 
10 chance to reach the IRS to have a question answered. 
Compliant American taxpayers deserve a faster refund than 40 
days when they file a paper return. More funds solve both of 
these problems.
    The compliant American taxpayers also deserve a far more 
vigorous compliance effort by the IRS. The people who earn 
wages are 95 percent compliant. 75 percent of the taxpayers 
take the standard deduction. These people are compliant. They 
pay their taxes timely, and they have a reasonable expectation 
that those who don't pay their taxes will be made to pay. That 
belief is at the heart of our voluntary tax-compliant system.
    Yet we have a tax compliance gap, which was last calculated 
in 1992 at $129 billion, $22 billion more than the deficit of 
$107 billion last year.
    The largest group of noncompliant taxpayers are sole 
proprietors, 29.2 billion; and the next largest are large 
corporations, 23.7 billion.
    Congress conducted an experiment in 1995 which proved IRS 
could reduce the noncompliant population and increase revenue 
for deficit reduction. Congress appropriated the revenue. The 
IRS increased its enforcement efforts. The IRS promised 300 
million marginal return as a result of its first-year efforts, 
but actually returned over 800 million.
    Those who pay their taxes deserve to have those who don't 
pay pursued. And, Mr. Chairman, NTEU believes that Congress is 
responsible for allocating sufficient funds to enable the IRS 
to do the job compliant taxpayers expect and deserve.
    We also urge, Mr. Chairman, that the IRS be directed to 
stop its proposed reduction in force which will have a very bad 
impact on taxpayers.
    For example, the IRS imposes liens on taxpayer property, 
and they will not be released as timely. Interest cost to 
taxpayers will be increased because cases will not be processed 
as timely. Taxpayers will not receive as timely a notification 
that their case is closed, making them a target for continued 
unwarranted notices of deficiencies. There will be 
significantly less experienced problem resolution personnel. 
There will be fewer people performing taxpayer outreach 
efforts, and less assistance will be provided to those who want 
to file their returns electronically.
    As you know, Mr. Chairman, based on the report IRS 
submitted to you, they plan to perform the work of 2,371 
experienced employees with 1,312 inexperienced employees, and 
no plan exists today concerning how the work will be 
accomplished with these fewer employees.
    The IRS plan, if allowed to be implemented, will harm the 
credibility of the IRS with those it needs most: compliant 
taxpayers and those seeking to be compliant. We urge that the 
proposed RIF be cancelled and that the $97 million IRS has not 
spent in fiscal year 1997, because of the cancelled TSM program 
and a cancelled RIF among IRS personnel, be reprogrammed to 
front-line taxpayer services and enforcement work.
    Finally, Mr. Chairman, I would like to briefly mention the 
U.S. Customs Service. The Customs Service is the first line of 
defense with respect to drug interdiction and ensuring 
compliance with U.S. trade laws. The Customs Service is seizing 
more drugs, discovering more discrepancies in claimed value of 
goods coming into the United States than ever before. The 
Customs Service is doing a terrific job byany measure, yet 
those who perform the work in the Customs Service, inspectors and 
canine enforcement officers, do not have law enforcement status. They 
carry weapons, effect arrests, detain prisoners, get shot at, yet they 
are not classified as law enforcement officers. We believe, Mr. 
Chairman, that this injustice should be changed.
    Thank you for allowing me to testify, and I will be very 
pleased to answer any questions you might have.
    [The prepared statement of Mr. Tobias follows:]



[Pages 153 - 168--The official Committee record contains additional material here.]





    Mr. Kolbe. Thank you very much, Mr. Tobias. I appreciate 
particularly the statement in your submitted testimony where 
you pledge your support to this subcommittee to work with us to 
try to bring about a reorganization of the IRS that will work 
to benefit both the taxpayer, as well as the compliant 
taxpayer, and get after the noncompliant taxpayer, and we 
certainly appreciate the support that you have given us.
    We have been talking, as you know, with the IRS about the 
reduction in force, and this is one of the issues that this 
subcommittee has dealt with as to how much more effort we are 
going to put into customer service and how we can reallocate 
these resources. So I think your testimony as a front-line--
representing the front-line workers is very important and very 
helpful to us, and we appreciate it.
    Mr. Tobias. Thank you.
    Mr. Kolbe. Thank you very much, Mr. Tobias.
                              ----------                              --
--------

                                            Tuesday, April 8, 1997.

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE FROM THE STATE OF CALIFORNIA

    Mr. Kolbe. We will go back now and take the Honorable 
Maxine Waters from California. Maxine.
    Ms. Waters. Thank you very much.
    Mr. Chairman and Members, I really do appreciate the 
opportunity to appear before the subcommittee today. I have 
written testimony that if, in fact, I can submit it, I will do 
that.
    Mr. Kolbe. Yes.
    Ms. Waters. But let me just try and communicate to you the 
very real concern of the Congressional Black Caucus. We have 
made our number one priority the eradication of drugs in our 
society, and we are working very closely with our drug czar and 
with the White House to support efforts to really get at 
dealing with the drug problem.
    The budget that you must consider for them, for the Office 
of National Drug Control Policy, is a budget that basically 
must support the staff. In addition to that, we are interested 
in the media campaign and the High-Intensity Drug Trafficking 
Areas program. Now, in two of those areas, I think the staff in 
the High-Intensity Drug Trafficking Areas program, they are not 
really asking for increases, but they are asking to be able to 
maintain their effort.
    The increase really does come with the media effort. The 
idea that we focus a lot of attention through the print and 
electronic media directed at our young people to, basically, 
try and send home the message that drugs are dangerous and that 
they cannot be involved in drugs is a very important effort 
that must be made.
    They are proposing, I believe, about $175 million, and it 
is based on a careful reading of the experience of advertisers 
which indicates that to advance a specific message, a media 
campaign must provide a minimum of four exposures per week, 
reaching 90 percent of the target audience.
    We believe that using the right kind of consultants, 
putting together the right kind of program and the right 
images, be it athletes, entertainers, CEOs, it does not matter, 
if they put together the right message, we believe that it can 
be very, very effective in getting at the drug problem that 
confronts this Nation, and particularly getting at the problem 
of our young people, who increasingly appear to be involved in 
drugs.
    So we are here, basically, to send the message that the 
Congressional Black Caucus believes that it is very important 
to fund the drug czar and the efforts that are identified in 
the President's budget, and that we will be supporting these 
efforts each step of the way and working with the White House 
and others in a bipartisan effort to try and get something 
done.
    [The prepared statement of Congresswoman Waters follows:]



[Pages 171 - 173--The official Committee record contains additional material here.]





    Mr. Kolbe. Thank you very much, Mrs. Waters. I really 
appreciate your testimony. I couldn't agree more with you about 
the need to really tackle the drug problem. No group in our 
society is more devastated than blacks and other minorities in 
the inner cities, by drugs and what they have done to our 
society. And we really, as a Nation, need to face up to this 
and do something about it. And I am really appreciative that 
the Black Caucus has decided to tackle this as a number one 
issue.
    We have been talking obviously with ONDCP, as well as the 
other agencies that come under our jurisdiction that have 
responsibility in this area, about how we can best allocate the 
resources, and we have had discussions with General McCaffrey 
about the advertising campaign that is being proposed.
    We want to make sure it is done and done in a thoughtful 
way and in a way that will really have an impact, and I am sure 
that you would agree with that.
    Ms. Waters. I certainly do, and what I hope is that the 
drug czar will allow for a lot of input from the Members and 
others who have ideas. We want to make sure that we don't 
fritter away dollars, but the dollars are targeted, they are 
well spent, with the right kind of images that will connect. 
And I think we all have a responsibility to just get in there 
and work with them and make sure that they spend these dollars 
in the most cost-effective way.
    Mr. Kolbe. Thank you. I quite agree.
    Ms. Waters. You are welcome.
    Mr. Kolbe. Thank you very much for testifying, Mrs. Waters. 
Thank you.
    Mrs. Maloney is not here, and we are still now 20 minutes 
ahead of schedule, so I don't feel badly about taking a couple 
of minutes to recess here to meet with a group that I need to 
just say hello to for a few minutes. We will resume in about 5 
or 10 minutes here. Thank you.
    [Brief recess.]
                              ----------                              

                                            Tuesday, April 8, 1997.

                                WITNESS

JIM CUNNINGHAM, NATIONAL FEDERATION OF FEDERAL EMPLOYEES

    Mr. Kolbe. The subcommittee will resume here. Is Mr. Jim 
Cunningham here? Mr. Cunningham of the National Federation of 
Federal Employees.
    Go ahead, please.
    Mr. Cunningham. Good morning, Mr. Chairman. I am Jim 
Cunningham, President of the National Federation of Federal 
Employees. On behalf of the 150,000 Federal employees 
represented by NFFE, I am pleased to be here with you this 
morning to present our views on Federal employee pay and the 
current state of affairs at the General Services 
Administration.
    The President's fiscal year 1998 budget contains only a 2.8 
percent pay adjustment for Federal employees. This is 
unacceptable to the members of NFFE. This minimal adjustment is 
far short of the 6.6 percent pay adjustment that employees 
should be receiving under the provisions of the 1990 Federal 
Employees Pay Comparability Act, FEPCA.
    Not only has the failure of the administration and Congress 
to provide the full pay adjustments called for by FEPCA 
inflicted severe financial hardship on Federal employees, but 
by consistently underfunding the raises mandated by FEPCA, the 
administration and Congress are endangering the future ability 
of the Federal Government to provide citizens with high-quality 
service and assistance they have come to expect.
    NFFE maintains that Federal employees should receive fully 
funded locality pay raises and national comparability 
increases. Over the past 14 years, Federal employees have 
shouldered a disproportionate share of the cost of deficit 
reduction. Through cuts in Federal pay and benefits, the 
Federal work force has contributed more than $200 billion to 
deficit reduction since 1981.
    NFFE is aware that in order to fund full pay raises for 
Federal employees, Congress is required to find offsetting cuts 
for these expenditures. NFFE asserts that the solution to the 
dual concerns of Federal pay comparability and deficit 
reduction lies in reducing the level of contracting out.
    At a time when the structure and size of the Federal work 
force is being reformed, a similar reform effort should be 
aimed at Federal contracting out practices. Specifically, NFFE 
urges this subcommittee to adopt the provisions of H.R. 886, 
which would cut $5.7 billion from agency service contracting 
funds and make the money available for pay raises that are due 
Federal employees in 1998.
    NFFE believes that the adoption of H.R. 886 provisions 
would correct the injustices of requiring Federal workers to 
give up part of their statutory pay increases, while contract 
employees, who are paid from the same coffers, remain 
untouched.
    I would like to address the situation at the General 
Services Administration. Currently, the GSA is attempting to 
contract out many of its functions to the private sector. GSA 
is taking this action despite numerous studies that have 
clearly shown that the current employees can perform their 
duties at a lower cost than private sector contractors. For 
example, GSA was unable to implement a pilot project utilizing 
private sector leasing contractors in Philadelphia because it 
found the cost for performing identical functions increased 
significantly under the private sector contractors.
    In light of this evidence, NFFE is concerned that this 
contracting out effort is not being driven by a desire to lower 
GSA cost, but rather by the desire of the administration to cut 
Federal jobs in order to meet their arbitrary downsizing goals. 
In fact, the chart included in my written testimony from GSA's 
fiscal year 1998 budget clearly shows that over the last 5 
years, GSA's budget has dramatically increased, while at the 
same time, its FTE level has plummeted.
    Specifically, GSA's fiscal year 1998 budget calls for a 
record low number of 14,403 FTEs, and this is a decline of 
5,845 FTEs or a 28.9 percent decrease since fiscal year 1993. 
Obviously, if the costs are increasing while the work force is 
declining, budgetary citings are not driving the substantial 
staff reductions. In fact, according to NFFE's GSA counsel, GSA 
is about to award a contract that is intended to augment this 
existing staff while it continues to encourage its Federal 
employee work force to accept separation incentives. 
Ironically, GSA justifies this course of action by stating that 
its self-imposed hiring freeze prevents it from hiring 
additional workers.
    In light of this information, NFFE urges the subcommittee 
to carefully examine GSA's operation and contracting out 
proposals. The Congress and taxpayers need to be sure that the 
administration is pursuing a rational, cost-effective 
reorganization plan, and not haphazardly slashing Federal jobs 
and opening the door for private sector contractors to 
overcharge the American public in a frenzied effort to meet 
downsizing targets.
    Before I conclude, I would like to address one final item. 
Recently, NFFE's GSA counsel learned that GSA management had 
unilaterally suspended the labor management partnership that 
had been in place between NFFE and GSA since October 15, 1993. 
As disturbing as that decision was, even as disturbing to NFFE 
was the manner in which our GSA counsel learned of this 
decision. Our locals were not notified of this decision 
directly by GSA management, but, rather, they had to find out 
about it from a letter GSA sent to Senator Mikulski.
    In fact, the relationship between NFFE and GSA has 
deteriorated almost to the point of complete communications 
breakdown. There is no union involvement or input in any 
decisions regarding reform of GSA business practices and 
adequate notification of proposed personnel moves and 
reassignments and no respect for the statutory rights of GSA 
employee unions.
    In spite of this breakdown, NFFE's GSA counsel remains 
willing to work with GSA management in an effort to reform GSA 
operations. However, the relationships will only function if 
GSA management is open and honest with its partners.
    NFFE urges the subcommittee to take whatever action it can 
to help reestablish the partnership agreement and end the 
contracting out practices.
    I thank you very much for this opportunity to give my 
testimony. Thank you.
    Mr. Kolbe. Thank you very much, Mr. Cunningham. We 
appreciate the testimony of your organization. We will 
certainly be taking that into consideration here. Thank you.
    Mr. Cunningham. Thank you.
    [The prepared statement of Mr. Cunningham follows:]



[Pages 177 - 191--The official Committee record contains additional material here.]




                                            Tuesday, April 8, 1997.

                                WITNESS

DAVID SCHLEIN, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Kolbe. David Schlein, AFG. Please go ahead.
    Mr. Schlein. Thank you, Mr. Chairman. My name is David 
Schlein. I am the national Vice President with the American 
Federation of Government Employees, which represents 700,000 
Federal and D.C. Government workers. I appreciate this 
opportunity to share our views with the subcommittee, and we 
look forward to establishing a cordial and productive 
relationship with you, Mr. Chairman.
    Mr. Kolbe. Thank you.
    Mr. Schlein. I will address two topics today, Federal 
Employee Union busting and fair compensation for government 
workers. H.R. 986, introduced recently, would effectively 
outlaw Federal employee unions at all agencies, and deprive the 
working and middle-class Americans who make up the Federal work 
force of effective representation in their offices and plants.
    Although this bill has been referred to the Government 
Reform and Oversight Committee, I raise this issue here because 
the bill is an outgrowth of last year's unsuccessful effort to 
use the Labor-HHS appropriations bill to bust Federal employee 
unions and the Social Security Administration and the Health 
Care Financing Administration, an effort which could be mounted 
again this year.
    AFG strongly opposes this legislation, and we would 
naturally oppose any amendments to the Treasury, Postal 
appropriations bill, which resembles H.R. 986.
    Official time is used by Federal employee union 
representatives to fulfill statutory obligations to members and 
nonmembers alike. That is, Federal employees, who arealso union 
representatives, can use official time to engage in negotiations and 
representation while on duty status; that is, on the clock. H.R. 986 
would bust Federal employee unions by so greatly restricting the use of 
official time as to all but eliminate it.
    This actually is a complicated issue, Mr. Chairman, one not 
easily reduced to tiny sound bites. By law, representatives of 
Federal employee unions can use official time only for those 
activities which are reasonable, necessary, and in the public 
interest, such as negotiating collective bargaining agreements, 
handling employee grievances, conducting and receiving 
training, and working with management to improve the delivery 
of services. However, any activities performed by an employee 
relating to the internal business of the labor organization 
must be performed while in a nonduty status. This includes 
solicitation of membership, elections of officers and 
collection of dues. Contrary to much misinformation that is 
circulating, Federal employee representatives are also 
forbidden to use official time for any partisan political 
activities.
    Official time is necessary because Federal employee unions 
are required to represent all employees in their bargaining 
units, even those who don't pay dues. Federal employee unions 
have been forbidden to charge fees for the services they are 
legally obligated to provide to nonmembers.
    In exchange for being saddled with these additional 
responsibilities, the Civil Service Reform Act of 1978 allowed 
Federal employee unions to bargain with agencies over official 
time. Of course, official time is not restricted to the Federal 
sector. Many private sector companies pay their employees 
official time for official union activities during the work 
day, including General Motors, Ford, Chrysler, Inland Steel and 
Armco Steel. Official time is also used by State and local 
levels of government.
    Official time is used to make the delivery of services to 
the American people more effective, more efficient, and more 
reliable. Emulating the example of enlightened private sector 
firms like Saturn, Corning Glass and Harley Davidson, the 
President issued an executive order in 1993 that established a 
cooperative relationship between managers and rank and file 
Federal employees, often referred to as partnerships.
    Managers can now finally take into account the expertise 
and experience of those resourceful men and women working on 
the front lines of the Federal Government when making important 
workplace decisions. Partnerships between labor and management 
are a practical, bottom-line approach to the public's demand 
for better, more effective, more efficient and less expensive 
government.
    This embryonic attempt at reinventing the government 
through partnership would be nipped in the bud if anti-official 
time legislation is passed.
    Official time is also used to improve labor management 
relationships and preclude the need for costly unnecessary 
litigation.
    Mr. Kolbe. Mr. Schlein, let me interrupt you. You are on 
the top of page 4 of an 18-page statement here.
    Mr. Schlein. I have it summarized here.
    Mr. Kolbe. Well, you have been going through it word by 
word so far, and we are going to have to wrap it up in about 2 
minutes.
    Mr. Schlein. Thank you. Finally, official time is used to 
ensure the effective representation of Federal employees and 
their offices and plants. Union representatives also use 
official time to ensure that members and nonmembers alike are 
effectively represented in the workplace, whether it is 
representing a few of the employees in their bargaining units, 
even those who don't pay dues, through the grievance process, 
are all of the employees, again, even those who don't pay dues, 
through the collective bargaining process. The loss of official 
time would smash and bash Federal employees unions with a one-
two punch.
    Again, AFG urges the members of the subcommittee to oppose 
any legislation that would eliminate official time in all 
Federal agencies, as H.R. 986 does. Needless to say, Mr. 
Chairman, this will be a most important issue for AFG 
throughout the 105th Congress.
    I would now like to turn your attention to Federal pay. 
Under the Federal Employees Pay Comparability Act, all general 
schedule Federal employees should receive a 2.8 percent raise 
based on documented increases and the cost of labor nationwide 
as determined by the Employment Cost Index.
    The President's fiscal year 1998 budget is consistent in 
that it provides for a 2.8 percent nationwide adjustment. A 
further salary increase is due to Federal employees because of 
measured gaps between Federal and non-Federal pay on a local 
basis. For 1998, the law authorizes three-fifths or 60 percent 
of the target gap, which would require a 14.3 percent average 
locality increase. However, the fiscal year 1998 budget 
proposes no locality raises.
    Following passage of FEPCA in 1990, many thought that the 
pay increases due Federal white collar workers would no longer 
be cut back or held up by the President and/or the Congress. 
After all, a careful, painstaking and bipartisan reform of the 
pay system, 2 years in the making, has been accomplished by the 
Democratic-controlled Congress. Under FEPCA, the pay rates 
would be based on comparability with those found in the private 
sector, and raises would consist of both nationwide and 
locality components.
    The result of the past few years of low balling on Federal 
pay increases is that the effort to close the pay gap with a 
non-Federal economy is lagging.
    Mr. Kolbe. We have gone almost twice the normal time. The 
full statement will be placed in the record, and if you would 
like to make a closing, I don't want to cut you off in the 
middle of a sentence.
    Mr. Schlein. Well, basically, as you know, we believe FEPCA 
is very important to the future of the Federal service, and we 
hope that your committee will look at providing the full pay 
raises in the full amount under FEPCA. Thank you very much.
    Mr. Kolbe. We appreciate your comments with regard to the 
pay raises, also with regard to H.R. 986. Let me just say that 
whatever the personal views of this Member or other Members 
have been, that has not been a part of our appropriations bill 
in the past, and I have no reason to think any of that would be 
in our appropriation bill this time.
    Mr. Schlein. Great.
    Mr. Kolbe. Thank you very much.
    [The prepared statement of Mr. Schlein follows:]



[Pages 195 - 218--The official Committee record contains additional material here.]





                                            Tuesday, April 8, 1997.

            GENERAL SERVICES ADMINISTRATION RELATED MATTERS

                               WITNESSES

BERNARD H. BERNE, M.D., PH.D.
WILLIAM BURKE, INTERNATIONAL WINDOW FILM ASSOCIATION

    Mr. Kolbe. We are going to turn to some people talking 
about General Services Administration. Dr. Berne.
    Dr. Berne. Good morning, Mr. Chairman.
    Mr. Kolbe. Good morning.
    Dr. Berne. I am a resident of Arlington, Virginia. I serve 
the Food and Drug Administration as a medical officer who 
reviews medical device approval applications. I am testifying 
as a private individual. I am not on official time.
    GSA is planning to consolidate most of the FDA at the 
former White Oak Naval Surface Warfare Center in Montgomery 
County, Maryland. This is a very poor location for a Federal 
headquarters facility. This location will cause me and other 
FDA employees a hardship. Metrorail is 3 miles away. Buses run 
infrequently to the site. The nearby beltway and other roads 
are already congested. This is one mile outside the beltway.
    FDA and GSA are planning a country club in the White Oaks 
affluent suburbs. FDA's 130-acre campus will have a visitors' 
center and other amenities. Adjacent Federal property will 
contain a public golf course and a woodland. Congress must stop 
this extravaganza.
    The 104th Congress wisely rescinded funding for the 
Montgomery County phase of the FDA consolidation. There are no 
funds available to proceed with the project at this time, 
except for those that GSA has diverted from other projects.
    I work in an excellent building, which is only about 10 
years old. I see no reason to build an expensive new facility 
when Congress is trying to balance the budget. Some FDA units 
occupy older buildings. However, most of these are already 
moving to a new facility in College Park, Maryland.
    The administration has not requested any funding for the 
consolidation in the fiscal year 1998 budget. In addition, the 
project presently lacks an approved prospectus. President Jimmy 
Carter's Executive Order 12072 requires Federal facilities and 
the Federal use of space in urban areas to serve to strengthen 
the Nation's cities and make them attractive places to live and 
work. The Executive Order requires Federal agencies to 
economize on their use of space. FDA's 130-acre campus does not 
economize on the use of space.
    Last year, President Clinton issued Executive Order 13006, 
which states, ``The administration reaffirms the commitment set 
forth in Executive Order 12072 to strengthen our Nation's 
cities by encouraging the location of Federal facilities in our 
central cities.'' White Oak is not in any city, and it is 
certainly not in any central city. It is certainly not in 
Washington, D.C.
    Congress should not fund projects that violate Executive 
Orders. The Southeast Federal Center in downtown Washington, 
D.C., is now available for a major Federal headquarters 
facility. Adjacent to it is the Metro station, and it is close 
to the Capitol building. The Southeast Federal Center is ideal 
for FDA's facility. You may have seen this discussed in 
yesterday's Washington Post in the Business Weekly.
    Unlike affluent White Oak, southeast D.C. urgently needs 
redevelopment. The consolidation at Southeast Federal Center 
could revitalize a decaying neighborhood that is not far from 
the Capitol building, Maryland, and Virginia. The consolidation 
can help President Clinton's plan to revitalize D.C's failing 
economy. Part of Clinton's plan is that federal workers should 
not be leaving the District of Columbia. The entire FDA 
consolidation, which is in several places, is actually removing 
1,000 workers from the District of Columbia. The Southeast 
Federal Center does not have 130 acres and a nearby golf 
course. However, the FDA does not need 130 acres and a golf 
course. It can occupy high-rise buildings on a smaller site.
    Two Executive Orders require GSA and FDA to give the 
Southeast Federal Center preference over the White Oak site. 
However, because of past actions by conference committees on 
appropriations, GSA and FDA refuse to evaluate the Southeast 
Federal Center and continue to look at White Oak. I therefore 
ask your committee to take the following four actions:
    Number one, please do not appropriate any funds to support 
an FDA consolidation at White Oak. These issues generally start 
in the Senate, from the Maryland delegation. Please appropriate 
$5 million for a GSA study of a major FDA consolidation in the 
District of Columbia, with an initial focus on the Southeast 
Federal Center. I am just asking for $5 million so they will 
change their direction. That is the main purpose of this and 
the only purpose. I don't want it built at this time until we 
balance the budget.
    Please ask GSA to appraise the value of the White Oak site. 
A sale of the site can help fund an FDA consolidation 
elsewhere. It would also support the Navy Base Closure Act, 
which was really designed to close bases and save the 
government money, not to convert them to something else which 
is not really appropriate on that site. It was a Navy base, 
which required weapons facilities and large open spaces, but 
this doesn't.
    Please do not appropriate any funds to prepare or acquire 
any site for any part of the FDA consolidation until a 
prospectus for the entire consolidation is approved in 
accordance with the provisions of the Public Buildings Act of 
1959. This involves the Transportation and Infrastructure 
Committee. This project has no prospectus, and, in the past, it 
was approved without a prospectus. But with a provision put in 
the law, you didn't need a prospectus. The rescission, however, 
removed that. That was one of the biggest things about the 
rescission, that it took away the projects that didn't have 
prospectuses. This has no prospectus. They shouldn't be 
preparing to build on anything that isn't in the District.
    [The prepared statement of Dr. Berne follows:]



[Pages 221 - --The official Committee record contains additional material here.]




    Mr. Kolbe. Thank you very much, Dr. Berne. We appreciate 
your testimony. As you probably know, this year's budget does 
not have any request for anything to consolidate at White Oak 
Naval.
    Dr. Berne. It comes out of the Senate, generally.
    Mr. Kolbe. I understand that. We certainly appreciate you 
alerting us to that.
                              ----------                              

                                            Tuesday, April 8, 1997.

                                WITNESS

WILLIAM BURKE, THE INTERNATIONAL WINDOW FILM ASSOCIATION

    We will go to William Burke of the International Window 
Film Association. Go ahead, please.
    Mr. Burke. Thank you, Mr. Chairman, for allowing me to 
present testimony on behalf of the International Window Film 
Association pertaining to the Treasury, Postal Subcommittee 
consideration for the fiscal year 1998 General Services 
Administration budget.
    Mr. Chairman, my name is Bill Burke, and I am an active 
member of the AIMCAL Window Film Committee and former Executive 
Director of the International Window Film Association, the 
IWFA. The IWFA, headquartered in Phoenix, consists of more than 
1,500 members internationally, including manufacturers, 
distributors, professional dealers of security window film in 
39 countries. Over 25,000 individuals are employed actively in 
the U.S. in this industry. It is essentially all mom-and-pop 
businesses, we might add.
    The Association acts as a cohesive voice for the window 
film industry and does not represent one brand of product, but 
offers training, support, maintains industry ethics and 
standards, encourages research and development, and functions 
as a conduit for information to consumers and those who have 
requirements.
    Over the past two decades, the security window film 
industry has interacted with various government agencies, 
including USIA, FEMA, the DEA, FBI, all American embassies 
abroad. These relationships have generated a wealth of accurate 
scientific evidence which demonstrates the effectiveness of 
window film for security purposes.
    I would like to briefly give you the historical background 
and the issue that I would like to bring to your attention 
today. Immediately following the bombing that occurred at the 
Alfred P. Murrah building in Oklahoma City, President Clinton 
issued a memorandum directing the GSA to upgrade all Federal 
facilities with minimum security standards that were outlined 
in a report recently completed by the Department of Justice 
entitled, ``Vulnerability of Federal Facilities.''
    The report noted one standard was the installation of 
security window film. Post Oklahoma City, a number of occupant 
agencies of GSA properties had funding in place to upgrade the 
building security, including a number of day care centers 
located inside these facilities.
    Due to the GSA's desire to conduct further performance 
testing, funding lapsed and the proper protection was not 
provided. As we have stated before, we have made every effort 
to work with GSA and will continue to do so in order to develop 
the appropriate protection for glass on government buildings.
    Because we represent the industry, as opposed to 
onemanufacturer, the window film industry has gathered information from 
a variety of sources globally and has the ability to provide access to 
a variety of experts on the testing and studies that have been 
conducted on security window film in the past.
    One year after the President issued his memorandum on 
security upgrades, your subcommittee and your companion 
subcommittee in the Senate stepped in and included language in 
the fiscal year 1997 appropriation report directing GSA to 
develop a budget and a plan to protect government employees 
with the installation of security film. The language, as you 
know, instructed the GSA to submit this plan, along with the 
President's fiscal year 1998 budget submission. This is still 
pending.
    Mr. Chairman, there have been several studies conducted by 
the State Department, Department of Justice, Corps of 
Engineers, FBI, the Department of Navy, all recommending the 
use of window film as a cost-efficient and viable security 
device that saves lives.
    The most recent study was conducted in the wake of the 
Khobar Towers bombing in Saudi Arabia in which 19 American 
servicemen were killed, and 500 others injured. The study 
conducted by the Department of Defense entitled, ``The Downing 
Report,'' notes that the security experts had recommended 5 
months before the bombing that the apartments at the Khobar 
Towers be coated with security window film, what they referred 
to as Mylar coating, which is just a brand of base film, to 
minimize the shattering that occurs from blasts. This was never 
done, and it was concluded that blast shards was the major 
factor in 12 of the 19 deaths.
    In conclusion, Mr. Chairman, I hope you and the members of 
the subcommittee will assist in expediting the upgrade of 
security of buildings that house government employees as 
directed by Congress and the administration.
    President Clinton issued his memorandum directing GSA to 
begin this activity in June of 1995. We believe that these 
minimum security upgrades should be adhered to immediately to 
protect the lives of government employees. I urge you to help 
expedite the GSA's development of the budget and the plan for 
security film as outlined in your fiscal year 1997 
appropriations report. Further, I urge Congress to begin to 
provide funding for this year for this very important safety 
measure.
    Thank you very much for providing me with this time, and if 
there is anything I can answer, I would be delighted to do so, 
sir.
    Mr. Kolbe.  Thank you very much, Mr. Burke. I think you 
have given us some very interesting testimony on an issue which 
I was not aware of before, so I appreciate you bringing it to 
our attention. It is certainly one of the things we want to 
talk to GSA about, as well as the other agencies.
    [The prepared statement of Mr. Burke follows:]



[Pages 278 - 280--The official Committee record contains additional material here.]




                                            Tuesday, April 8, 1997.

                INTERNAL REVENUE SERVICE RELATED MATTERS

                                WITNESS

ROBERT BYRNE, AMERICAN ASSOCIATION OF RETIRED PERSONS

    Mr. Kolbe. Our next individual is Mr. Robert Byrne, AARP, 
Tax Counseling for the Elderly.
    Mr. Byrne. Good morning, Mr. Chairman. On behalf of the 
American Association of Retired Persons, thank you for this 
opportunity to testify concerning appropriations next year for 
tax counseling for the elderly, otherwise known as the TCE 
program.
    My name is Robert Byrne, and I am a volunteer Congressional 
District Coordinator in AARP's Voter Education Program. The 
Association supports the administration's proposal to freeze 
TCE's appropriation next year at its current level of $3.7 
million. The Association deeply appreciates the subcommittee's 
continued support of tax counseling for the elderly, which is 
targeted to low and moderate income older Americans. This cost-
effective program improves taxpayer compliance measurably for 
the Internal Revenue Service by helping to insure that more tax 
returns are prepared completely and accurately.
    The agency reports that many taxpayers with incomes below 
the minimal required level needlessly file tax returns each 
year. This results in unnecessary costs to both the taxpayer 
and the Federal Government. TCE helps prevent such occurrences. 
TCE has enabled the IRS to assist older minorities more 
effectively, as well as hard-to-serve taxpayers, such as the 
rural elderly and shut-ins, especially those residing in 
nursing homes or senior citizen housing.
    In 1996, the program offered assistance in 25 languages, 
including American sign language. The AARP Foundation, a 
separate 501(c)(3) corporation, operates the Tax Aid Program, 
which is by far the largest of the TCE programs. The value of 
TCE has been amply demonstrated over the years and is reflected 
in growing demands for assistance.
    A report issued 4 years ago by the General Accounting 
Office indicates that in 1992, TCE accounted for the 
preparation of more than four times the number of returns 
prepared at IRS walk-in sites. More than 33,000 volunteers are 
involved in TCE services, at approximately 11,000 sites across 
the country. I would also like to point out that in 1996, 
according to IRS records, a 95 percent mathematical accuracy 
rate was reported.
    While over 1.6 million people receive tax counseling 
annually, and we do not have complete data for the current tax 
season, but we expect TCE to continue to grow in the future.
    There are several reasons why this is likely to happen. 
First, the elderly population is increasing. Secondly, the 
complexities of our Tax Code cause many older taxpayers 
particular problems in computing their tax obligations. 
Moreover, many older citizens are not aware of the changes made 
in our tax laws over the past few years. Third, the IRShas 
increasingly turned to TCE to provide assistance, in large part because 
budgetary constraints have stretched the ability of the agency to 
respond directly to numerous public inquiries. Volunteers are 
contributing over 2.8 million hours annually in direct public service 
to older taxpayers.
    When Commissioner Richardson testified before the 
subcommittee last month, Mr. Chairman, she reported tax 
counseling for the elderly along with a similar initiative, and 
I am quoting, ``Increased taxpayer assistance by giving 
taxpayers the opportunity to have direct contact at almost 
20,000 sites with volunteers trained by IRS personnel. Last 
year, over 80,000 volunteers served almost 3.5 million 
taxpayers through both of these programs''.
    TCE volunteers are dedicated to the program, and are 
committed to helping others. The people they assist would 
otherwise be forced to pay a professional consultant to prepare 
their tax returns, which could result in an exorbitant cost for 
anyone living on the low or moderate income.
    Tax counseling for the elderly will continue to participate 
in successful IRS efforts, such as the reduced unnecessary 
filing initiative. In 1996, 1.8 million taxpayers were notified 
by the agency they may not have to file a Federal return. 
Three-fourths of the letters went to taxpayers who were at 
least 61 years old. Many of these older individuals 
subsequently enlisted the help of a TCE volunteer in order to 
confirm they did not need to file a return that year.
    Thank you again for this opportunity to comment on funding 
next year for the Tax Counseling for the Elderly Program.
    [The prepared statement of Mr. Byrne follows:]



[Pages 283 - 290--The official Committee record contains additional material here.]





    Mr. Kolbe. Thank you very much, Mr. Byrne. Thank you for 
the testimony of the AARP on this program. It is certainly a 
worthwhile program, as you pointed out, and it helps us very 
much with tax compliance and we certainly appreciate talking 
about it.
    Mr. Byrne. Thank you.
    Mr. Kolbe. Thank you.
                              ----------                              

                                            Tuesday, April 8, 1997.

             MERIT SYSTEMS PROTECTION BOARD RELATED MATTERS

                                WITNESS

JOHN F. MARKUNS, ADMINISTRATIVE JUDGE, MERIT SYSTEMS PROTECTION BOARD 
    PROFESSIONAL ASSOCIATION

    Mr. Kolbe. Judge John Markuns, Administrative Judge John 
Markuns, on behalf of the Merit Systems Protection Board. Mr. 
Markuns, please go ahead.
    Mr. Markuns. Thank you, Mr. Chairman.
    Mr. Kolbe. Again, let me just remind those who may have 
come in after the time I said this, full statements will be 
placed in the record so we can keep on track and get everybody 
in that has come here to testify today. Keep your testimony to 
5 minutes. Thank you.
    Mr. Markuns. Thank you, Mr. Chairman. My name is John 
Markuns. I am Chairman of the Merit Systems Protection Board 
Association's Special Committee on Legislation. I am here 
representing judges that are represented by that Association, 
and, again, thank you very much for the opportunity to present 
our views before the subcommittee. We do have a written 
statement for the record and we ask that you please accept it.
    Mr. Kolbe. It will be placed in the record.
    Mr. Markuns. Thank you. Just to provide you with some brief 
background regarding our presence here today, we were here last 
year before Chairman Lightfoot, regarding a problem that has 
developed since 1993 at MSPB, which is an agency which hears 
and decides employee appeals of adverse actions taken against 
Federal employees.
    We also hear a wide variety of other employment-related 
matters. We came before the subcommittee last year because we 
were facing a growing backlog of cases, and mostly as a result 
of losing a large number of experienced judges to other 
agencies. The reason we lost those judges was because a pay 
disparity had developed between our class of judges and judges 
in our agencies, particularly, administrative law judges and 
the Social Security Administration.
    That presented a situation where judges are now essentially 
performing triage on their case loads. We are trying to keep up 
with the cases that we have in, and we are finding ourselves 
increasingly unable to do so. This year, we come before you and 
our backlog has increased by some 40 percent, and essentially, 
it is like at this point, we suggest you think of it as a rock 
hitting the pond, and the ripples are now starting to spread 
throughout the Federal system.
    Over two million Federal employees have the right to appeal 
to the Merit Systems Protection Board from adverse actions. To 
the extent we can't timely process our cases, it has the effect 
of deterring agencies from taking actions that should be taken 
and also discouraging employees who may have just appeals from 
filing those appeals with the Board.
    It is a problem for us, and we would ask that you take 
cognizance of it, and we have some solutions that we have 
proposed in our written testimony for your consideration. We 
understand that Congressman George Gekas is in the process of 
submitting a statement for the record, and he has been very 
supportive of our concerns in the past.
    We thought that perhaps in the last session of Congress, 
that Congress had come up with a potential solution to the 
problem that we were facing through an administrative 
reorganization, through the judiciary. Congressman Gekas worked 
very hard on that bill.
    At this point, we don't know where that legislation may go 
in this session, but we ask that the subcommittee take note of 
the fact that we do save money for the government when we 
timely process our cases. To the extent that we have the 
backlog that we do, it is costing the government millions of 
dollars in potential back pay liability and attorneys' fees.
    There are a number of hidden costs that inure to agencies 
because we are unable to do our job in a timely fashion, and we 
just ask that the committee perhaps consider that it is now 
time, finally, to afford the judges at MSPB pay equity in line 
with the latest group of judges, who received a pay schedule, 
immigration judges who are being paid the same rate. We already 
lost a judge to immigration in December. It is a practical 
problem for us. We are trying to keep our finger on the dike, 
but we really just ask that the committee take a look at our 
problem and see if they can help us.
    I would also point out that the Chairman of our agency, in 
a letter to you, pointed out that if he doesn't receive 
supplemental funding, that there is a possibility of a 
reduction in force of judges, which is only going to make 
matters worse from our standpoint. It is only going to 
encourage judges to continue to look elsewhere. We do have some 
concern that we are caught in the middle in this situation.
    We understand that last year, Congress only allotted half 
of the money that MSPB requested to fund its studies function 
and that this year, the administration or our agency, through 
an O&B-cleared budget, has again requested the full amount for 
studies, but kept the ceiling at last year's level.
    As a result, it looks as though we are now losing 
additional funds that we desperately need for our adjudications 
function. I just ask you take a look at the whole situation, 
and if you could give us some consideration, we would 
appreciate it.
    [The prepared statement of Mr. Markuns follows:]



[Pages 293 - --The official Committee record contains additional material here.]




    Mr. Kolbe. Thank you very much, Mr. Markuns. We appreciate 
you calling this to our attention because it is something I was 
not personally familiar with.
    Mr. Markuns. Thank you.
    Mr. Kolbe. Thank you very much.
                              ----------                              

                                            Tuesday, April 8, 1997.

      NATIONAL ARCHIVES AND RECORDS ADMINISTRATION RELATED MATTERS

                               WITNESSES

DAVID HOOBER, STATE ARCHIVIST/ARIZONA
PAGE PUTNAM MILLER, NATIONAL COORDINATING COMMITTEE FOR THE PROMOTION 
    OF HISTORY
LESLIE ROWLANDS, PROFESSOR/UMCP

    Mr. Kolbe. We have several people to talk about the 
National Archives. First, David Hoober, a State archivist from 
Arizona. Welcome.
    Mr. Hoober. Mr. Chairman, members of the subcommittee, my 
name is David Hoober. I would first like to explain my attire. 
Apparently, my luggage bonded with my airline more than I did 
and it is somewhere on the Southwest system.
    Mr. Kolbe. That is all you needed to say. I could have 
loaned you a U of A championship T-shirt to wear.
    Mr. Hoober. I considered bringing you one but I thought you 
probably would have to put an addition onto your home if you 
got one more.
    I am State Archivist of Arizona, a former President of the 
National Association of Government Archives and Records 
Administrators, a former member of the Governing Council of the 
American Association for State and Local History, and currently 
that association is representative to the National Historical 
Publications and Record Commission, whose planning and budget 
committee I have chaired.
    I am delighted to offer testimony about the importance of 
the National Archives and Records Administration and the NHPRC 
to this committee, chaired by a fellow Arizonan, who is blessed 
with a keen sense of our State's history, and to a House 
subcommittee with an equally deep commitment to our Nation's 
documentary heritage. NORA and the NHPRC share complimentary 
missions. The National Archives preserves Federal records and 
the NHPRC makes grants to help archivists, records managers and 
others in the States' care for non-Federal records, which help 
tell the rest of America's history.
    I ask that this subcommittee provide at least the level of 
funding that the President has requested for NORA, and I ask 
that you provide more than requested in the White House budget 
for the NHPRC.
    The commission is authorized to receive up to $10 million, 
and it badly needs an appropriation of at least $6 million if 
it is to implement, even partially, its strategic plan for 
documenting American history.
    The NHPRC has strengthened that plan by giving in it a 
priority to two things, the research and development program 
and a State partnership program. Let me explain briefly why the 
archival community welcomes these priorities.
    The biggest current threat to our documentary heritage is 
our growing reliance on electronic record keeping systems, 
systems that lack sound approaches to managing the archival 
records in those systems. So much of our history, now and in 
the future, will be recorded in electronic format.
    The research and development projects in which the NHPRC is 
investing visiting will help archivists overcome obstacles to 
preserving and providing access to computerized records.
    Increased NHPRC support is essential if we are to master 
these technologies before we lose the important records they 
create. Additionally, the NHPRC State Partnership Program is 
helping archivists across the country save many kinds of 
records and provide public access to them.
    As partners, State historical record's advisory boards make 
grant contributions to meet the needs that are identified in 
State documentary plans. This results in efficient grant making 
and good decisions about which records are saved and how they 
are made accessible to the public.
    For example, the Florida regrant program, to which the 
NHPRC contributed only $150,000, enabled 23 archives, 
universities, and historical societies to improve local records 
programs, to provide archives and records management education 
and process for access, collections of historical papers 
already in custody, including a collection on black education 
at Florida A&M University.
    The NHPRC program, to which New York contributed $150,000 
in State funds, helped 56 projects to survey and process 
historical records and to ensure automated access to 
institutions' documentary holdings. An NHPRC program in 
Kentucky led its State legislature to appropriate $950,000 for 
a comprehensive program of local records management and 
preservation, which subsequently continued. So far, States with 
regrant programs have contributed slightly more funding to them 
than has the NHPRC.
    The partnership between the commission and the States is 
real. I would be remiss if I did not touch briefly on the 
positive effect of the NHPRC in Arizona.
    Since 1976, 18 grants have been made to our State's 
archives, historical societies, universities and museums. Early 
grants ranged from helping guarantee preservation and access to 
glass plate negatives, documenting Tucson and southern Arizona, 
to caring for the Emory Kolb Photo and Manuscript Collection, 
the most complete visual record of the Grand Canyon from 1902 
to 1976.
    Ongoing archival programs for the city of Tucson and for 
the Arizona State Museum, the latter being the leading 
Southwest repository of anthropological collections, were 
started with seed money from the NHPRC. The most recent grant 
from the NHPRC is now making possible a new strategic plan for 
preservation and use of historical records in Arizona.
    In conclusion, let me comment that an investment of just $6 
to $10 million to help secure America's history will pay off in 
better record keeping nationwide and a better historical 
understanding of localities, our States, and our Nation, for 
generations to come.
    Thank you for letting me explain the value of the NHPRC 
partnership for those of us who are trying to preserve our 
history in all the States. And, Mr. Chairman, please come visit 
us at the State Archives sometime when you are home in Arizona.
    Mr. Kolbe. Thank you very much, Mr. Hoober. I will take you 
up on that.
    I have been hearing from a lot of people in Arizona that 
have an interest in the archive projects, and I am very 
interested in learning more about it, so I will take you up on 
that and we will make a visit. Thank you very much. I 
appreciate you coming all this way. I hope your luggage catches 
up to you before you are back in Phoenix.
    [The prepared statement of Mr. Hoober follows:]



[Pages 327 - 332--The official Committee record contains additional material here.]




                                            Tuesday, April 8, 1997.

                                WITNESS

PAGE MILLER NATIONAL COORDINATING COMMITTEE FOR THE PROMOTION OF 
    HISTORY

    Mr. Kolbe. Page Miller, National Coordinating Committee for 
the Promotion of History.
    Ms. Miller. Thank you very much. I appreciate the 
opportunity to be with you. I was also here for the agency 
hearing, and I was a witness to your friendly bet with the 
archivists about the basketball.
    Mr. Kolbe. Oh, yes.
    Ms. Miller. And I want to congratulate you on winning that.
    Mr. Kolbe. I haven't heard anything from them, yet. I 
thought of that a few days ago.
    Ms. Miller. Yes, because you are to get a steak dinner, as 
I recall.
    Mr. Kolbe. That is right.
    Ms. Miller. I am here on behalf of a coalition of 53 
historical and archival organizations to urge you and the 
committee to appropriate $206 million in operating funds for 
the National Archives. I would like to talk about that part of 
the budget first. This is almost a $10 million increase over 
last year for the National Archives' operating budget, and we 
support this very strongly.
    The Archives has a mandate to appraise and describe and to 
service and preserve the records of the Federal Government, and 
I would like to talk about three of those components.
    The appraisal. The appraisal is working with the various 
agencies to decide which records are worthy to take to the 
Archives and to preserve and which should be destroyed. Only 
about 3 percent of what the agencies create are actually 
preserved and retired to the Archives. But developing the 
schedules that determine this 3 percent is called the 
appraisal, and the developing of these schedules is crucial and 
agencies need assistance with this.
    They are just about 2 dozen employees at the Archives who 
actually have hands-on work with agencies in determining these 
appraisal schedules, and we feel that they sorely need to beef 
up and have more people working with agencies. Agencies are 
eager for more guidance, particularly in this area of 
electronic records.
    A second area that is crucial is the describing of records. 
If you put all the records in the National Archives that are in 
Washington, and College Park, on a shelf, that shelf would be 
240 miles long, and so we feel that describing these records so 
that users can actually use the finding aids is crucial. But 20 
percent of the records in the National Archives do not have 
adequate enough descriptions so that researchers can come in 
and use finding aids.
    The Archives is in the process now of developing an 
electronic finding aid, and so they are transferring existing 
information from their finding aids into this large 
computerized finding aid, but for this 20 percent of the 
records that do not have adequate descriptions, there is 
nothing there to be transferred into this new electronic 
finding aid, so we are really concerned about this descriptive 
work. It is very labor intensive and that is another reason 
that the Archives sorely needs this $10 million increase.
    The third area is the servicing of records. Here I would 
like to talk a little bit about the State Department's central 
file. The central file are the cables that go back and forth 
between the Washington State Department and the Embassies and 
consulates abroad. This is heavily used by diplomatic 
historians, probably the richest collection in the Archives, 
heavily used.
    Now the State Department has digitized this collection, 
beginning in 1973, and from 1973 to the present, these are now 
only in digitized form. They are about to transfer next year 
the central file for 1973 to 1975 for the State Department to 
the National Archives.
    Now this is a watershed event for the National Archives 
because they receive a lot of computerized records, but this is 
the first time it has been a textual record, memos and cables, 
that had been transferred. Before it has been data sets.
    Now, if you go back into the Archives and you want to use 
records that are computerized, you generally have to buy the 
electronic tape, which is about $100, and then take it home and 
use it either at your home or at your office. There is no 
facility in the National Archives' central search room for the 
hardware and the software for using these electronic records.
    So when the central file arrives for the period 1973 to 
1975, there is going to need to be an infusion of money for 
software, hardware, technical expertise, so that the diplomatic 
historians and others who come to use these very important 
State Department files will have access to them in the central 
search room, that they will not have to buy the electronic tape 
and use it at their office. I think the Archives has to in this 
reference and servicing area provide for the use of these 
records in the search room. So this is just an idea of some of 
the very pressing problems that certainly warrant this increase 
of $10 million.
    Now, one reason I have talked at length about this is 
because there is a practice, I think, of robbing Peter to pay 
Paul, and we are urging, as did your last witness, David 
Hoober, for there to be $6 million for NHPRC. And we are 
concerned that extra $2 million for NHPRC be on top of the 
President's request and not come out of the National Archives' 
operating budget.
    So we are now turning to the issue of NHPRC.
    I would just like to say that there are many areas of 
grants that are needed and people that apply to NHPRC for 
funds. We certainly support, as historians and archivists, the 
electronic records projects. The NHPRC, in the last 3 years, 
has funded 31 electronic records projects, and we think that 
should continue. But we also think it is very important they 
continue to fund the documentary editing projects.
    As I was driving over this morning, I was listening to NPR 
and there was a rundown on the Pulitzer prize winners, and one 
of the winners was Jack Rackoff, whose book on the original 
intent of the Constitution relied heavily on the documentary 
editing projects of the ratification of the Constitution and 
the first Federal Congress.
    So we hope that there will be a balanced approach to grants 
for NHPRC and that there will be enough money, $6 million, so 
that both the State programs, the documentary editing programs, 
and the electronic records programs can be funded. Thank you 
very much.
    Mr. Kolbe. Thank you very much, Ms. Miller, for that 
testimony.
    [The prepared statement of Ms. Miller follows:]



[Pages 336 - 338--The official Committee record contains additional material here.]




                                           Tuesday, April 18, 1997.

                                WITNESS

LESLIE ROWLANDS, REPRESENTING THE ASSOCIATION FOR DOCUMENTARY EDITING

    Mr. Kolbe. Last in this area is Leslie Rowlands.
    Ms. Rowlands. Thank you very much. I am Leslie Rowlands. I 
teach history at the University of Maryland, and I am a 
documentary editor of a project that I will say a little more 
about as I go on.
    Now, since I am an historian, I want to begin with a little 
story from the past, and this is a story about a man named John 
Boston, who was a slave in Maryland, who, during the first year 
of the Civil War, escaped from his owner and took refuge with a 
regiment that had been recruited in Brooklyn, New York.
    As soon as he was safe, he took the occasion to write a 
letter to his wife, and I want to read you just a few lines 
from that:
    (Original text.)
    ``My Dear Wife,'' he wrote, ``it is with grate joy I take 
this time to let you know Whare I am i am now in Safety in the 
14th Regiment of Brooklyn this Day i can Adress you thank god 
as a free man I had a little truble in giting away But as the 
lord led the Children of Isrel to the land of Canon So he led 
me to a land Whare fredom Will rain in spite Of earth and 
hell.''
    After describing more about his circumstances, he then 
turned to personal comments. ``My Dear,'' he wrote, ``I Cant 
express my grate desire that i Have to See you i trust the time 
Will Come When We Shal meet again And if We dont met on earth 
We Will Meet in heven Whare Jesas ranes.''
    ``rest yourself Contented i am free,'' he concluded, 
signing himself, ``Your Affectionate Husban,'' and then adding 
two postscripts, ``Kiss Daniel For me,'' and ``Give my love to 
Father and Mother.''
    Now, this letter is part of a story that is being 
documented by the Freedmen and Southern Society Project, a 
historical editing project that I direct. John Boston's letter 
is one of thousands that my coeditors and I have discovered and 
are publishing in a multivolume edition entitled ``Freedom: A 
Documentary History of Emancipation,'' in 900 page volumes that 
look like this.
    Now this documentary edition, like many others, would 
simply never have come into existence without grants from the 
NHPRC, whose appropriation for fiscal year 1998 you are 
considering.
    During the initial years of our research, the NHPRC 
constituted our principal source of funds. Now as we 
transcribe, annotate, and index the documents, prepare them for 
publication, NHPRC grants generally constitute about one-third 
or less of our total budget. That is, we have used that money 
to generate other funds, but we could not generate that 
remaining support without the stable foundation that the NHPRC 
funds provide. In that regard, I think this is typicalof most 
editing projects.
    Since 1964, which is when the NHPRC first acquired grant-
making authority, it has played an absolutely critical role in 
democratizing access to our Nation's documentary heritage, that 
is, making it available to all the American people.
    With really only very small appropriations from Congress, 
it has achieved remarkable success. To date, there are nearly 
800 NHPRC volumes in print, not to mention thousands of reels 
of microfilm. Recent years have been especially productive, as 
we witness the published results of earlier investments in the 
very time-consuming process of locating documents in 
repositories and private collections across the country and 
abroad as well. Just from 1992 to the present, I count 117 
volumes that have been published by NHPRC-sponsored documentary 
projects. I appended to my prepared statement a list of those 
volumes published since 1992.
    Now if funding is sustained for NHPRC, this record can 
easily be matched and even exceeded in coming years, as past 
investments reach the pay-off stage, but unfortunately, those 
investments are in increasing jeopardy because the NHPRC is 
being strangled by stagnant appropriations, and now, still 
worse, by a threatened 20 percent cut, if the amount proposed 
by the administration is granted. That $4 million recommended 
by the administration would return the NHPRC's appropriation to 
the same amount it received almost two decades ago in 1979, and 
in real dollars, that of course is a cut of enormous 
proportions. So I strongly urge you to support funding the 
NHPRC at the level of $6 million for fiscal year 1998.
    Now the impact of that $6 million would be widespread 
because the NHPRC-sponsored editions are bringing within reach 
citizens, students, and scholars nationally significant 
documents of the American past, of which they would not have 
otherwise accessed.
    You are probably aware of the use of these editions by 
scholars, and Page Miller has just cited one recent example. A 
vivid number that I think illustrates this results from a 1992 
study that the NHPRC conducted with the American Council of 
Learned Societies, which found that more researchers used 
NHPRC-sponsored documentary editions than used all the 
Presidential libraries combined, and think of the Federal funds 
spent on the Presidential libraries.
    What may be less well-known to you, and what I would like 
to note before concluding, is the use of documentary editions 
beyond the academy and outside the classroom. That is, for 
example, the words of John Boston, with which I opened, have 
been part of dramatic readings performed by theater companies 
and on radio programs. In 1993, the National Black Theater 
Company of New York alone performed 20 dramatic readings for 
hospital workers in auditoriums and hospitals for workers 
during their lunch breaks. The Prenumbra Theater Company of 
Minneapolis/St. Paul performed dramatic readings from Freedom 
the following year. One radio station in New York devoted a 
whole evening to readings, almost 5 hours. I can't imagine that 
any one listener heard all of them, but for 5 hours, they did 
readings from Freedom. Legislators, like yourself, rely on 
documentary editions.
    Mr. Kolbe. Let me just ask you to finish up as soon as 
possible.
    Ms. Rowlands. All right. As well as museum curators, 
filmmakers, the Arizona State Museum in Tucson, for example, 
has created a division that is dedicated to contact history in 
the greater Southwest, made possible by the documentary 
relations of the Southwest.
    Finally, students are using these, particularly in National 
History Day projects. Federal Congress papers and sites of 
editions on the World Wide Web are receiving numerous 
inquiries. The George Washington papers web site, for example, 
is visited more than 4,000 times a month.
    Stagnant funding, I think, threatens this access and I 
would call upon you to appreciate the ways in which editions 
are used, not only by scholars, but by the American people in 
general and fund the commission at $6 million.
    Thank you very much.
    Mr. Kolbe. Thank you very much for your testimony and for 
the stories that you told. We appreciate hearing that.
    [The prepared statement of Ms. Rowland follows:]



[Pages 342 - 350--The official Committee record contains additional material here.]



                                            Tuesday, April 8, 1997.

                                WITNESS

RALPH BROWN, NATIONAL ALLIANCE FOR MODEL STATE DRUG LAWS

    Mr. Kolbe. We have three more. We are falling a bit behind, 
but we will try and wrap this up as quickly as possible here.
    Next is Ralph Brown, speaking on behalf of the National 
Alliance for Model State Drug Laws.
    Let me repeat again, the full statement will be placed in 
the record, and we ask that you summarize this in the time 
allotted.
    Mr. Brown. Mr. Chairman, I am Ralph Brown of Dallas Center, 
Iowa, and I am Chair of the National Alliance for Model State 
Drug Laws. Thank you for this chance to share with you the 
successes of our model State drug law conferences.
    Under the leadership of this subcommittee and your former 
Chair, Jim Lightfoot of Iowa, the Congress appropriated $1 
million for each of fiscal years 1996 and 1997 to allow the 
Alliance to provide model State drug law conferences.
    We work with State leaders to review the model laws drafted 
by our predecessor, the President's Commission on Model State 
Drug Laws. In doing so, we are carrying out the sense of the 
Congress in the legislation that created this commission. That 
commission set out to accomplish the mission of developing 
model laws for the States to use in addressing drug and alcohol 
abuse problems.
    Misperceptions and skepticism gave way to understanding and 
consensus. As a consequence, on the commission, those in law 
enforcement became convinced that good treatment works and 
enhances public safety. Those in treatment came to better 
appreciate the role that law enforcement must play in tackling 
alcohol and other substance abuse.
    Mr. Brown. From a new understanding, the Commission drafted 
42 model laws that combine a carrot-and-stick approach to 
reducing alcohol and other substance abuse. Tough sanctions are 
used where appropriate. Equally important, the sanctions are 
designed to be constructive, to promote prevention and to 
attempt to leverage alcohol and other drug abusers into 
treatment.
    To continue the Commission's work, we then formed the 
National Alliance, a 501(c)(3) nonprofit corporation.
    By your appropriations, you have allowed States to recreate 
for themselves some of the educational and consensus-building 
processes we experienced on the Commission.
    To date we have held eight conferences, in Oregon, Georgia, 
Louisiana, Utah, Mississippi, Nevada, Iowa and Oklahoma. 
Tomorrow we go to New Jersey. Each conference is a day of 
intense hands-on sessions, dedicated to hammering out which of 
the model laws that State should pursue.
    We have active participation from law enforcement, 
treatment providers, judges, State legislators, education and 
prevention specialists, schoolteachers, administrators, 
corrections officials, Governors' staff, business and labor 
leaders, community advocates and parents.
    The model law gatherings are more than what we 
traditionally think of as conferences. They are forums in which 
individuals, whose lives are touched by alcohol and other 
drugs, can begin to reshape their State's alcohol abuse 
policies. State individuals use these conferences to share 
concerns, to hear different disciplines' perspectives on the 
issues, flesh out problems, identify priorities and needs, 
foster cooperative efforts among professions and agree on 
coordinated system-wide responses to the problem.
    This freedom of discussion flows from the nature of the 
conferences themselves. The ultimate decisions of what to do in 
each State rest with the conference participants, but States do 
look to the Alliance to help fine-tune these plans and turn 
their suggestions into reality.
    States depend upon the Alliance's analysis of legislation 
and existing statutes. This is especially true of hot topics 
involving system changes and delivery of services, such as 
managed care. By relying upon the Alliance's services, State 
leaders strive to prevent some age-old problems: Inconsistent, 
temporary statutory solutions; needless mistakes in application 
of laws; and a lack of reliable information regarding the 
effectiveness of laws. They want to avoid wasting time and 
resources on a legislative treadmill which can only keep them 
in the same place.
    The Alliance will continue to work hard to help State and 
local leaders take positive steps toward enacting strong, 
effective laws on alcohol and other substance abuse, tobacco 
issues. Just as General McCaffrey has lent his encouragement to 
the Alliance's efforts, it is our fervent hope that the support 
shown by this subcommittee and the Congress for our current 
activities will continue into the coming year.
    Thank you very much, Mr. Chairman.
    Mr. Kolbe. Thank you very much. And we certainly agree that 
the work of the Alliance on this model drug law is a very 
important project and one which I had some knowledge of when I 
was in the Arizona State Legislature working on similar kinds 
of projects on model State laws. Thank you very much for your 
testimony.
    [The prepared statement of Mr. Brown follows:]



[Pages 353 - 373--The official Committee record contains additional material here.]




                                            Tuesday, April 8, 1997.

                          GSA RELATED MATTERS

                                WITNESS

MICHAEL SHEHADI, BUILDING OWNERS AND MANAGERS ASSOCIATION

    Mr. Kolbe. Michael Shehadi, representing the Building 
Owners and Managers Association International. Mr. Shehadi, 
please. Welcome and thank you. Please proceed.
    Mr. Shehadi. Thank you. Mr. Chairman and Members of the 
committee, my name is Michael Shehadi, and I am Group Senior 
Vice President for the Charles E. Smith Companies. We are a 
full-service real estate firm located here in Washington, and 
we are the largest provider to the Federal Government for at 
least office space here in the National Capital region.
    This morning I am speaking with you as a member of BOMA, 
and as former Chair of its National Advisory Council. Our 
16,000 members develop, own and manage over half the commercial 
office space in the United States, and the Federal agencies 
make up a considerable portion of that space.
    BOMA is pleased to have a constructive working relationship 
with GSA, especially with officials of the BPS, the Public 
Buildings Service. The BPS is a member of BOMA's National 
Advisory Council, which is a group composed of the largest real 
estate companies in America.
    Agency officials are members of BOMA committees, and BOMA 
has testified before Congress to encourage the reevaluation of 
restrictions that hamper GSA's operations.
    In the past few years, there has been tremendous change in 
the Agency's direction, and as commercial owners and managers 
we have witnessed the transformation firsthand. GSA has made 
tremendous strides to become an agency that, in the 
administration's words, works better and costs less. At a time 
when other Federal agencies are requesting higher funding 
levels, GSA's cost to the taxpayer, whether operating 
appropriations or through the Federal Buildings Fund, continues 
to decrease. Moreover, the Agency functions not only with less 
funding but also with fewer employees as the Agency's total 
manpower has decreased by 29 percent since 1993.
    The GSA clearly desires to fundamentally alter the way it 
conducts its business. As indicators of this commitment, let me 
offer the following initiatives, each of which have been 
enacted in the last year: First, the Can't Beat GSA Leasing 
Program. By instituting more cost-effective and timely leasing 
practices, the Agency now activity competes for the leasing 
business of Federal agencies. As a result, and utilizing 
streamlined procedures, industry benchmarks and universal 
standards like the BOMA Floor Area Measurement Standard, the 
Agency makes it easier for private commercial companies to 
interact with the GSA.
    Second, the National Real Estate Service Contract. Under 
this new program up to eight different private sector 
commercial brokers will provide leasing services for GSA's 
tenant agencies, covering all functions from initial space 
requests to postlease services. By contracting withcommercial 
brokers, GSA will augment its staff with the skills and expertise of 
the private sector.
    Third, the Good Neighbor Policy. GSA seeks to be a full 
partner in local affairs by actively participating in Business 
Improvement Districts, which are private sector initiatives 
created to resolve community problems. Thus, the cost of 
security, maintenance and cleaning within these districts can 
now be shared equally without others covering Federal 
structures' costs.
    And fourth, the Private Sector Cooperation. GSA now 
actively seeks greater private sector interaction for its 
employees. Thus, helping to improve performance. GSA's 
employees are enrolled, through BOMA International and real 
estate educational programs, which update their skills and 
foster interaction with private sector professionals. Thus, the 
GSA continues to advance as an organization for transforming 
the way it performs.
    For some ``business reinvention'' is merely a popular catch 
phrase, but for GSA we are witnessing that they really do mean 
it.
    The GSA has come a considerable distance in reinventing 
itself, but the larger question remains is what should the 
Agency's future role be? BOMA believes that the appropriate 
approach for Congress is not to radically alter the GSA. BOMA 
maintains that opportunities exist for the private sector to 
assist in improving service and cutting costs, an example being 
the National Real Estate Services Contracts.
    However, we caution against indiscriminate cuts that would 
undermine the Agency and decimate its ability to carry out its 
functions of real property oversight. Thus BOMA urges this 
subcommittee not only to provide the necessary funds for GSA's 
business operations, but also to support the Agency's efforts 
to reshape itself and better serve its customers and the 
taxpayer.
    In summary, BOMA is pleased with the dramatic changes being 
implemented by the GSA. We are particularly impressed with the 
efforts of David Barram and Bob Peck and their employee teams. 
Their initiatives have helped to facilitate greater and more 
efficient interactions between private and public sectors. Yet, 
of greater importance, these efforts allow GSA to better serve 
its primary customer, the Federal Government, and the user 
agencies.
    Thank you for your time.
    Mr. Kolbe. Thank you very much, and I certainly share your 
enthusiasm for the work of David Barram and Bob Peck. I am very 
impressed with them as I have gotten to know them. Thank you 
very much for giving that testimony.
    [The prepared statement of Mr. Shehadi follows:]



[Pages 376 - 382--The official Committee record contains additional material here.]




                                            Tuesday, April 8, 1997.

                          FLRA RELATED MATTERS

                                WITNESS

RALPH STRNAD, WASHINGTON AREA METAL TRADES COUNCIL

    Mr. Kolbe. Our last statement this morning or this 
afternoon now is for Ralph Strnad. Welcome.
    Is that the correct pronunciation, sir?
    Mr. Strnad. Good morning. No, sir. It is Strnad.
    Mr. Kolbe. Please go ahead.
    Mr. Strnad. Good morning, and thank you for the support of 
your staff in seeing that I was able to do this this morning.
    Mr. Chairman and Members of the subcommittee, I appreciate 
this opportunity to appear before you this day and express our 
views and concerns relating to the continued funding of the 
Federal Labor Relations Authority at the proposed budgeted 
levels. The point of my appearance here is that I and my 
colleagues believe that to allocate funds for this Agency, 
uncritically, without specific direction, is to sanction 
pernicious conducts, practices and policies of its leadership 
and other agents over the past few years, at least in the 
Washington regional area.
    My name is Ralph Strnad. I am the Secretary of the 
Washington Area Metal Trades Council and the Chief Steward at 
the Goddard Space Flight Center in Greenbelt, Maryland.
    I am here with the approval of the WAMTC, as well as the 
Goddard Engineers, Scientists, and Technicians Association, 
GESTA, which is an IFPTE Local 29, whose president, Dennis 
Olivares, could not be here today. Between these two unions we 
jointly represent nearly 2,000 Goddard employees.
    Our experiences with the FLRA are as similar as they are 
disappointing. The FLRA is simply too politicized and 
operationally too pro-management. They seemingly have no 
expertise nor even the requisite bare sensitivity to the 
potentially oppressive working conditions visited on our 
bargaining unit members.
    In any kind of a generic adjudicatory body whose operations 
are objectively viewed as fair, legal and equitable, the 
direction of the decisions and judgments are usually somewhat 
balanced, which is to say, in FLRA terms, about half the 
decisions would be pro-management, and about half would be pro-
union. But with the FLRA, the decisions are grossly and 
disproportionately lopsided in favor of the agencies at the 
expense of the unions.
    We are lucky to prevail at a rate of 16 percent of filing 
unfair labor practices, and those victories are frequently 
tainted with face-saving compromises such as innocuous 
statutory language in notice-postings on Agency bulletin 
boards.
    Their investigations are slipshod, and, along with the 
tortured logic of their so-called legal analyses, are largely 
boilerplate and forced to a preordained conclusion. Labor is 
wasting its time in this forum.
    Customer service ratings must surely be high for the FLRA, 
but only because their obvious customer is agency management. 
This Agency does not even provide an internal complaint form 
for the innumerable problems we have encountered during the 
handling of a ULP or a petition.
    Individuals fare even worse in ULP decisions than unions. 
Agency brutality in this era of Federal downsizing knows no 
bounds, and far too many of our victims are exposed to 
irreparable harm as a consequence of trumped-up charges by 
desperate managers. Many heated arguments have failed to 
persuade the FLRA general counsel to follow their own 
regulations and honor petitions for temporary restraining 
orders and other injunctive relief in plain compliance with 5 
U.S.C. 7123(b-d).
    For the past 2 years the general counsel has been busy 
eroding what few pro-union doctrines the FLRA has managed to 
put in its books during its more enlightened past. Things have 
gotten to where we dread the publication of the next issue of 
the FLRA NEWS. Their new ``Covered-by Doctrine'' is a needless 
cruelty and serves no purpose but to crassly clear caseloads 
and accelerate the rate at which our ULPs are dispatched to the 
dustbin.
    We are not merely complaining that we want to win more or 
that we are tired of losing so many meritorious cases in what 
at best seems a capricious game at the taxpayers' expense. 
Rather we want a more level and equitable playing field ofthe 
sort Congress envisioned when it enacted Title 7 of the Civil Service 
Reform Act and established the independent FLRA.
    If you fully fund these people, thereby reinforcing their 
biased behaviors, and things proceed as they have been going, 
you will actually be placing that Agency at an increasing risk 
of totally losing its adjudicatory credibility and respect as 
an impartial government entity, and we have suggested three 
recommendations.
    One: Instruct the entire FLRA to implement and follow to 
the letter the plain-language meaning and mandates of their 
enabling statute and their own regulations published in Title 5 
of the CFR. Eliminate their reliance on unpublished or secret 
local practices of any kind, especially those which diminish 
the letter and spirit of the statute.
    Two: Mandate a customer satisfaction system for the FLRA 
where serious mishandling of cases can be registered and 
measured and monitored by the public and by Congress. Order the 
Government Accounting Office to help set up this system and 
require the FLRA to submit semiannual reports to this 
subcommittee evidencing compliance with the system's procedures 
and with the instruction requested above.
    Three: Instruct the FLRA to amend its regulations and other 
internal directives such that notice-postings that can be made 
into a meaningful remedy; i.e., notices should generally 
contain an admission clause on the part of the agency found in 
violation of the statute. Language should not be negotiable by 
or on behalf of the violator in so-called ``bilateral 
settlements,'' for which the FLRA is notorious, despite 
contrary instruction from its own general counsel, and see 
general counsel's memo entitled ``Settlement Policy May 25th, 
1994.'' See that all unilateral settlements are eliminated and 
expunged as an adjudicatory option for the FLRA casehandlers.
    Thank you very much for this opportunity to--this time to 
express this important issue.
    Mr. Kolbe. Thank you very much, Mr. Strnad, for that 
testimony. We appreciate it very much.
    Mr. Strnad. Thank you, sir.
    [The prepared statement of Mr. Strnad follows:]



[Pages 386 - 387--The official Committee record contains additional material here.]




    Mr. Kolbe. We have another written testimony that will be 
placed in the record here from Mr. Maldonado, University of 
Puerto Rico.
    [The statement of Mr. Maldonado follows:]



[Pages 389 - 391--The official Committee record contains additional material here.]




    Mr. Kolbe. No further testimony, this subcommittee stands 
adjourned.
    [The following statements were submitted for the record 
from Congresswoman Maloney, Congressman Jenkins, Congressman 
English, Congressman Meehan, Congressman Gekas, and Mr. Sharpe 
follow:]



[Pages 393 - 425--The official Committee record contains additional material here.]






                           W I T N E S S E S

                              ----------                              
                                                                    Page
Berne, B. H......................................................    219
Blumenauer, Hon. Earl............................................      1
Brown, Ralph.....................................................    351
Burke, William................................................. 219, 276
Byrne, Robert....................................................    281
Cunningham, Jim................................................ 150, 174
English, Hon. Phil...............................................    405
Gekas, Hon. G. W.................................................    412
Hoober, David....................................................    324
James, Sharpe....................................................    424
Jenkins, Hon. W. L...............................................    394
Larson, Eric.....................................................     16
Maldonado, Dr. N. I..............................................    389
Maloney, Hon. C. B...............................................    393
Markuns, J. F....................................................    291
Meehan, Hon. Marty...............................................    407
Miller, P. P................................................... 324, 333
Reiter, R. F.....................................................    145
Romero-Barcelo1, Hon. Carlos.....................................      5
Rowlands, Leslie............................................... 324, 339
Schlein, David................................................. 150, 192
Shays, Hon. Christopher..........................................    140
Shehadi, Michael.................................................    374
Strnad, Ralph....................................................    383
Tobias, Bob......................................................    150
Visclosky, Hon. Peter............................................     12
Waters, Hon. Maxine..............................................    169


                               I N D E X

                              ----------                              

U.S. Postal Service Related Matters:
                                                                    Page
    Honorable Earl Blumenauer (D-OR).............................      1
General Services Administration Related Matters:
    Honorable Carlos Romero-Barcelo1 (D-PR)......................      5
    Bernard H. Berne, M.D., Ph.D., Private Individual............    219
    International Window Film Association, William Burke.........    276
    Building Owners and Managers Association, Michael Shehadi....    374
    University of Puerto Rico, Dr. Norman I. Maldonado...........    389
    Honorable William L. Jenkins (R-TN)..........................    394
    Honorable Phil English (R-PA)................................    405
    City of Newark, New Jersey, Hon. James Sharpe, Mayor.........    424
Internal Revenue Service Related Matters:
    American Association of Retired Persons, Robert Byrne........    281
Merit Systems Protection Board Related Matters:
    Merit Systems Protection Boards Professional Association, 
      John Markuns...............................................    291
    Honorable George W. Gekas (R-PA).............................    412
Office of National Drug Control Policy Related Matters:
    Honorable Peter Visclosky (D-IN).............................     12
    Honorable Maxine Waters (D-CA)...............................    169
    National Alliance for Model State Drug Laws..................    351
Bureau of Alcohol, Tobacco and Firearms Related Matters:
    Collectors Arms Dealers Association, Eric Larson.............     16
Federal Election Commission Related Matters:
    Honorable Christopher Shays (R-CT)...........................    140
    Honorable Carolyn B. Maloney (D-NY)..........................    393
    Honorable Marty Meehan (D-MA)................................    407
U.S. Customs Service Related Matters:
    Analytical Systems Engineering Corporation, Robert F. Reiter.    145
Federal Employee Related Matters:
    National Treasury Employees Union, Bob Tobias................    150
    National Federation of Federal Employees, Jim Cunningham.....    174
    American Federation of Government Employees, David Schlein...    192
National Archives and Records Administration and Related Matters:
    State of Arizona, David Hoober...............................    324
    National Coordinating Committee for the Promotion of History, 
      Page Miller................................................    333
    The Association for Documentary Editing, Leslie Rowlands.....    339
Federal Labor Relations Authority Related Matters:
    Washington Area Metal Trades Council, Ralph Strnad...........    383

                                <all>
</pre></body></html>
